No. ______
In the Supreme Court of the United
__________________

States

VICKIE COOK, INDIVIDUALLY AND AS NATURAL
MOTHER TO DEANNA COOK; N. W., A MINOR, BY AND
THROUGH HER GRANDPARENT AND GUARDIAN VICKIE
COOK; A. W., A MINOR, BY AND THROUGH HER
GRANDPARENT AND GUARDIAN VICKIE COOK,
Petitioners,
v.
TONYITA HOPKINS; KIMBERLEY COLE;
JOHNNYE WAKEFIELD; YAMINAH SHANI
MITCHELL; JULIE MENCHACA, OFFICER; AMY
WILBURN, OFFICER; ANGELIA
HEROD-GRAHAM; CITY OF DALLAS,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
Aubrey “Nick” Pittman
Counsel of Record
The Pittman Law Firm, P.C.
100 Crescent Court, Suite 700
Dallas, Texas 75201-2112
214-459-3454
pittman@thepittmanlawfirm.com
Counsel for Petitioners
February 5, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
After making dozens of 911 calls concerning her
abusive ex-husband during 2009-2012, and being
promised assistance by police, in August 2012, Deanna
Cook made one final 911 call, along with bloodcurdling
screams to the operator, as her perpetrator slowly
murdered her. Fifty minutes and one stop to a 7-Eleven
store later, officers finally arrive to Deanna’s house but
never enter. Petitioners brought suit for violations of
their Fourteenth Amendment rights to due process and
equal protection with respect to two 911 calls. Despite
concluding that Plaintiffs “produce[d] evidence
sufficient to [raise a material-fact dispute] that the
City, at the time of the incident at hand, had a custom
of providing less protection in 911 call taking on the
bases of …[gender] and status as a domestic violence
victim,” the Fifth Circuit adopted a new “deemed
credible” approach to viewing a movant’s credibility.
The Fifth Circuit also arbitrarily excluded admissions
of discrimination as “outlier” evidence.
Further, regarding her due process claims, the Fifth
Circuit’s acknowledgment that “Deanna might have a
viable claim for violation of her due process rights if
this circuit recognized the state-created danger theory,”
and refusal to allow it, illuminates an irreconcilable
conflict with virtually every other circuit court of
appeals that allow this due process claim.
Thus, the questions presented are:
I.
Whether the requirements that “credibility
determinations, the weighing of the evidence, and the
drawing of legitimate inferences from the facts are jury

ii
functions, not those of a judge” can be evaded by the
simple expedient of the Fifth Circuit concluding,
without evidence disputing the veracity of that
employee’s statement, that confessed discrimination
testimony from one of the City’s 911 employees is
“outlier” evidence or that a movant’s testimony can now
be “deemed credible,” thereby now imposing an
insurmountable burden on the nonmovant.
II.
Whether the district court’s and Fifth Circuit’s
clear disregard of some of Petitioners’ evidence creates
a new and heightened standard for Plaintiffs to clear in
summary judgment proceedings by which courts need
not draw all justifiable inferences in favor of
nonmovants, and nonmovants must now present
sufficient evidence that is decidedly “more credible”
than defendants’ facial denials.
III.
Whether the Fifth Circuit Court of Appeals erred
in diverging from this Court’s ruling in DeShaney v.
Winnebago Cty. Dep’t. of Soc. Serv., 489 U.S. 189 (1989)
and holding that the acknowledged violation of Deanna
Cook’s Fourteenth Amendment due process rights is
not actionable simply because the Fifth Circuit has now
stated that it does not recognize state-created danger
due process claims, although virtually every other
circuit court of appeals would recognize these due
process claims.

iii
LIST OF PARTIES TO THE PROCEEDING
Petitioners, who were plaintiffs-appellants below,
are Vickie Cook, Individually and as Natural Mother to
Deanna Cook; N. W., a Minor, by and through her
Grandparent and Guardian Vickie Cook; A. W., a
Minor, by and through her Grandparent and Guardian
Vickie Cook; Karletha Cook-Gundy, Individually and as
Representative of the Estate of Deanna Cook,
Deceased.
Respondents are the City of Dallas, Tonyita
Hopkins, Kimberley Cole, Johnnye Wakefield,
Yaminah Shani Mitchell, Julie Menchaca, Amy
Wilburn, and Angelia Herod-Graham.

iv
LIST OF DIRECTLY RELATED PROCEEDINGS
There are no proceedings that are directly related to
this case.

v
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES TO THE PROCEEDING . . . . . iii
LIST OF DIRECTLY RELATED
PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . ix
OPINIONS AND BELOW . . . . . . . . . . . . . . . . . . . . . 3
BASIS FOR JURISDICTION . . . . . . . . . . . . . . . . . . 3
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
A. Prior to The Final 911 Call, Defendants
Were Aware of Deanna’s Background,
Call History, And Domestic Violence
Victim Status . . . . . . . . . . . . . . . . . . . . . . . 5
B. Deanna’s Final 911 Call. . . . . . . . . . . . . . . 6
C. Vickie Cook’s 911 Call . . . . . . . . . . . . . . . . 7
D. The District Court Received Evidence of
Actual Discrimination and Defendants’
Contemporaneous Access to Petitioners’
Status . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
E. City Leaders Effectively Acknowledge
that Discrimination Existed Through
Selective Enforcement . . . . . . . . . . . . . . . . 8

vi
F. The District Court Accepted Defendants’
Self-Interested Contentions That They
Had No Discriminatory Motive, Despite
Material Fact Disputes . . . . . . . . . . . . . . . 9
G. The Fifth Circuit Concludes That Certain
Evidence Is “Outlier”; That Movants’
Testimony Is “Deemed Credible;” And
Declines To Credit Other Evidence . . . . . 11
REASONS FOR GRANTING THE PETITION . . . 12
I.

The Fifth Circuit’s New “Outlier” Approach
Directly Conflicts with Other Circuits And
Eviscerates This Court’s Summary judgment
Principles . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

II.

In Ignoring Competing Evidence, The Fifth
Circuit Has Created a Presumption of
Credibility In A Defendant’s Denials . . . . . . 20

III.

The District Court and the Fifth Circuit
Acknowledge, But Ignore, The Evidence of
City-Wide Discrimination . . . . . . . . . . . . . . . 25

IV.

The Fifth Circuit’s Blatant Refusal to
Recognize The State-Created Danger Theory
Under Section 1983 Conflicts With other
Circuits, most of which Recognize These Due
Process Violations . . . . . . . . . . . . . . . . . . . . . 27

V.

The Fifth Circuit’s Opinion So Departs from
the Accepted and Usual Course of Judicial
Proceedings to Warrant this Court’s Exercise
of its Supervisory Powers . . . . . . . . . . . . . . . 34

vii
VI.

The Fifth Circuit’s Decision is Simply
Erroneous. . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(November 8, 2019). . . . . . . . . . . . App. 1
Appendix B Final Judgment in the United States
District Court for the Northern
District of Texas, Dallas Division
(February 6, 2019) . . . . . . . . . . . App. 29
Appendix C Memorandum Opinion and Order in
the United States District Court for
the Northern District of Texas, Dallas
Division
(February 6, 2019) . . . . . . . . . . . App. 31
Appendix D Order in the United States District
Court for the Northern District of
Texas, Dallas Division
(August 1, 2017) . . . . . . . . . . . . . App. 38
Appendix E Order in the United States District
Court for the Northern District of
Texas, Dallas Division
(August 27, 2015) . . . . . . . . . . . . App. 50
Appendix F Order in the United States District
Court for the Northern District of
Texas, Dallas Division
(October 28, 2013) . . . . . . . . . . . . App. 70

viii
Appendix G U.S. Const. amend. XIV . . . . . . . App. 89
42 U.S.C. § 1983 . . . . . . . . . . . . . App. 89
Fed. R. Civ. P. 56 . . . . . . . . . . . . App. 90

ix
TABLE OF AUTHORITIES
CASES
60 Ivy Street Corp. v. Alexander,
822 F.2d 1432 (6th Cir.1987) . . . . . . . . . . . . . . . 21
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986). . . . . . . . . . . . . . . 1, 15, 23, 35
Beltran v. City of El Paso,
367 F.3d 299 (5th Cir. 2004). . . . . . . . . . . . . 30, 31
Butera v. District of Columbia,
235 F.3d 637 (D.C. Cir. 2001) . . . . . . . . . . . . 28, 31
Celotex Corp. v. Catrett,
477 U.S. 317 (1986). . . . . . . . . . . . . . . . . . . . . . . . 1
Collins v. City of Harker Heights,
503 U.S. 115 (1992). . . . . . . . . . . . . . . . . . . . . . . 30
Cornelius v. Town of Highland Lake,
880 F.2d 348 (11th Cir. 1989). . . . . . . . . . . . . . . 30
DeShaney v. Winnebago Cty. Dep’t. of Soc. Serv.,
489 U.S. 189 (1989). . . . . . . . . . . . . . . . . . . passim
Deville v. Marcantel,
567 F.3d 156 (5th Cir.2009) . . . . . . . . . . . . . . . . 22
Doe ex rel. Magee v. Covington Cty. Sch. Dist.
ex rel. Keys, 675 F.3d 849 (5th Cir. 2012) . . 28, 32
Dwares v. City of New York,
985 F.2d 94 (2d Cir. 1993) . . . . . . . . . . . . . . 29, 31
Eastman Kodak Co. v. Image Technical
Services, Inc., 504 U.S. 451 (1992) . . . . . . . . . . . 15

x
Freeman v. Ferguson,
911 F.2d 52 (8th Cir. 1990). . . . . . . . . . . . . . 29, 31
Hollingsworth v. Perry,
558 U.S. 183 (2010). . . . . . . . . . . . . . . . . . . . . . . 35
Int’l Shortstop, Inc. v. Rally’s, Inc.,
939 F.2d 1257 (5th Cir.1991) . . . . . . . . . . . . 22, 23
Kallstrom v. City of Columbus,
136 F.3d 1055 (6th Cir. 1998). . . . . . . . . . . . 29, 31
Kennedy v. City of Ridgefield,
439 F.3d 1055 (9th Cir. 2006). . . . . . . . . . . . . . . 30
Kneipp v. Tedder,
95 F.3d 1199 (3d Cir. 1996) . . . . . . . . . . . . . 29, 31
Leatherman v. Tarrant County Narcotics
Intelligence & Coordination Unit,
507 U.S. 163 (1993). . . . . . . . . . . . . . . . . . . . . . . 29
Manganiello v. City of New York,
612 F.3d 149 (2d Cir.2010) . . . . . . . . . . . . . . . . . 20
Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574 (1986). . . . . . . . . . . . . . . . . . . . . 1, 15
McKinney v. Irving Indep. Sch. Dist.,
309 F.3d 308 (5th Cir. 2002). . . . . . . . . . . . . . . . 28
Miller v. FDIC,
906 F.2d 972 (4th Cir.1990) . . . . . . . . . . . . . . . . 20
Morin v. Moore,
309 F.3d 316 (5th Cir. 2002). . . . . . . . . . . . . . . . 28

xi
National Union Fire Ins. Co. v. Turtur,
892 F.2d 199 (2d Cir.1989) . . . . . . . . . . . . . . . . . 20
Nerren v. Livingston Police Dep’t,
86 F.3d 469 (5th Cir.1996) . . . . . . . . . . . . . . . . . 10
Nguyen v. United States,
539 U.S. 69 (2003). . . . . . . . . . . . . . . . . . . . . . . . 34
Pinder v. Johnson,
54 F.3d 1169 (4th Cir. 1995). . . . . . . . . . . . . 30, 31
Reed v. Gardner,
986 F.2d 1122 (7th Cir. 1993). . . . . . . . . . . . 29, 31
Riley-Stabler Constr. Co. v. Westinghouse
Elec. Corp., 401 F.2d 526 (5th Cir.1968) . . . . . . 20
Rivera v. Rhode Island,
402 F.3d 27 (1st Cir. 2005) . . . . . . . . . . . . . . . . . 30
Ross v. John’s Bargain Stores Corp.,
464 F.2d 111 (5th Cir.1972) . . . . . . . . . . . . . . . . 20
Scanlan v. Texas A&M University,
343 F.3d 533 (5th Cir. 2003). . . . . . . . . . . . . . . . 32
Securities & Exch. Comm’n v. Koracorp
Indus., Inc., 575 F.2d 692 (9th Cir. 1978) . . . . . 21
Shipp v. McMahon,
234 F.3d 907 (5th Cir. 2000). . . . . . . . . . . . . . . . 26
Strickland v. Norfolk Southern Railway Co.,
692 F.3d 1151 (11th Cir. 2012). . . . . . . . . . . . . . 21
Thomas v. Great Atl. & Pac. Tea Co.,
233 F.3d 326 (5th Cir.2000) . . . . . . . . . . . . . . . . 23

xii
Tolan v. Cotton,
572 U.S. 650 (2014). . . . . . . . . . . . . . . . . . . . . . . . 1
Tompkins v. Vickers,
26 F.3d 603 (5th Cir.1994) . . . . . . . . . . . . . . . . . 22
Uhlrig v. Harder,
64 F.3d 567 (10th Cir. 1995). . . . . . . . . . . . . 29, 31
United States v. $17,900 in United States Currency,
859 F.3d 1085 (D.C. Cir. 2017) . . . . . . . . . . . . . . 21
United States v. 3234 Washington Ave. N.,
480 F.3d 841 (8th Cir.2007) . . . . . . . . . . . . . . . . 21
White v. Lemacks,
183 F.3d 1253 (11th Cir. 1999). . . . . . . . . . . . . . 30
Wilkie v. Robbins,
551 U.S. 537 (2007). . . . . . . . . . . . . . . . . . . . . . . 35
Wilson v. Seiter,
893 F.2d 861 (6th Cir.1990), vacated on other
grounds, 501 U.S. 294 (1991) . . . . . . . . . . . . . . . 20
Wood v. Ostrander,
879 F.2d 583 (9th Cir. 1989). . . . . . . . . . . . . 30, 31
Young v. Quinlan,
960 F.2d 351 (3d Cir. 1992) . . . . . . . . . . . . . . . . 21
CONSTITUTION, STATUTES, RULES
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . 3, 4
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . passim

xiii
Fed. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . 4, 12, 13
Sup. Ct. R. 10(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
OTHER AUTHORITIES
Erwin Chemerinsky, The State-Created Danger
Doctrine, 23 TOURO L. REV 1 (2007) . . . . . . . . 33
Christopher M. Eisenhauer, Police Action and The
State-Created Danger Doctrine: A Proposed
Uniform Test, 120 Penn St. L. Rev. 893 (2016) . . 2
Laura Oren, Some Thoughts on the State-Created
Danger Doctrine: DeShaney is Still Wrong and
Castle Rock is More of the Same, 16 Temple Pol.
& Civ. Rts. L. Rev. 47 (2006) . . . . . . . . . . . . . . . 33
Jeff Sanford, The Constitutional Hall Pass:
Rethinking the Gap in §1983 Liability That
Schools Have Enjoyed Since DeShaney, 91
Wash. U. L. Rev. 1633 (2014) . . . . . . . . . . . . . . . 33

1
PETITION FOR CERTIORARI
To enhance predictability in summary judgment
rulings and ensure that a nonmovant is provided with
the ability to present material evidence with which to
survive summary judgment, this Court, through a
trilogy of cases,1 established standards to be applied in
ruling on summary judgment motions.
Although Petitioners acknowledge, as Justice Alito
noted in Tolan’s concurring opinion, that “a substantial
percentage of the civil appeals heard each year by the
courts of appeals present the question whether the
evidence in the summary judgment record is just
enough or not quite enough to support a grant of
summary judgment,”2 the present case does not fall
into that routine category. While the Fifth Circuit’s
opinion refers to this Court’s summary judgment
standards, it makes a dramatic and total departure
from those standards to give the district courts the
ability to classify evidence as “outlier evidence” and
ignore it entirely.
In fact, the Fifth Circuit’s opinion highlights two
significant departures from this Court’s precedent that
have so far departed from the accepted and usual
course of judicial proceedings that it compels review by
this Court. The Fifth Circuit Panel’s adoption of an
“outlier” analysis and a “deemed credible” approach to

1

Matsushita Elec. Indus. Co. v. Zenith Radio Co., 475 U.S. 574
(1986); Anderson v. Liberty Lobby, Inc., 477 U.S. 242 (1986);
Celotex Corp. v. Catrett, 477 U.S. 317 (1986).
2

Tolan v. Cotton, 572 U.S. 650, 661 (2014).

2
evaluating evidence is antithetical to this Court’s
summary judgment precedent.
In addition, the Fifth Circuit’s refusal to recognize
the due process cause of action under a state-created
danger theory for the acknowledged violation of
Deanna’s due process rights directly conflicts with
other circuit courts of appeal that would allow
Deanna’s claims to proceed. Indeed, the Fifth Circuit’s
ruling crystallizes the problem with an “absence of
consistency”, which “potentially allows for behavior in
one circuit to be actionable while being acceptable in
another circuit.” Christopher M. Eisenhauer, Police
Action and The State-Created Danger Doctrine: A
Proposed Uniform Test, 120 Penn St. L. Rev. 893, 909
(2016).
Review is therefore necessary to (i) resolve the
undeniable conflict between the Fifth Circuit’s opinion
and other circuits as to due process violations under
the state-created danger theory; (ii) preclude courts
from adopting the Fifth Circuit’s new “outlier evidence”
approach; (iii) prevent courts from adopting the Fifth
Circuit’s “deemed credible” application to a movant’s
credibility; and (iv) prevent the decision from
eviscerating the axioms that in ruling on summary
judgment, “the evidence of the non-movant is to be
believed, and all justifiable inferences are to be drawn
in his favor” and “credibility determinations, the
weighing of the evidence, and the drawing of legitimate
inferences from the facts are jury functions, not those
of a judge.”

3
OPINIONS AND ORDERS BELOW
The Fifth Circuit’s decision, reported at 2019 WL
5866683, is reproduced at App.1. The district court’s
Final Judgment is reproduced at App. 29. The grant of
the City of Dallas’s Motion for Summary Judgment is
reported at 2019 WL 459649 and reproduced at App.31.
The grant of the Individual Defendants’ Motions for
Summary Judgment based on qualified immunity is
reported at 2015 WL 7352543 and reproduced at
App.38 and App. 50. The district court’s grant of the
individual defendants’ motion to dismiss is reported at
2013 WL 12350006 and reproduced at App.70.
BASIS FOR JURISDICTION
The Fifth Circuit entered its decision on November
8, 2019. App.1. This Court’s jurisdiction is invoked
under 28 U.S.C. § 1254.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourteenth Amendment
Constitution provides:

to

the

U.S.

All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.

4
42 U.S.C. § 1983 provides:
Every person, who under color of any statute,
ordinance, regulation, custom or usage of any
state or territory or the District of Columbia
subjects or causes to be subjected any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress .…
Rule 56 of the Federal Rules of Civil Procedure
provides:
A party may move for summary judgment,
identifying each claim or defense — or the part
of each claim or defense — on which summary
judgment is sought. The court shall grant
summary judgment if the movant shows that
there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a
matter of law….
The relevant provisions of the Fourteenth Amendment,
42 U.S.C. § 1983 and Fed. R. Civ. P. 56 are set out in
App. 89-93, pursuant to Supreme Court Rule 14.1(f).

5
STATEMENT OF THE CASE
A. Prior to The Final 911 Call, Defendants
Were Aware of Deanna’s Background,
Call History, And Domestic Violence
Victim Status.
The origins of this suit date back prior to 2012,
when Deanna called police on dozens of occasions to
report domestic violence, including soon after her
divorce. ROA.5274. In one 911 call, she told police
that she has called “a hundred thousand times” and
moved three (3) times to avoid abuse. ROA.5278.
Multiple court and police records in 2009-2012
document many of Deanna’s calls. See, ROA.5464;
ROA.5332-37. Deanna also reported to police that her
ex-husband stole a key and entered her home without
permission. ROA.5278. On July 28, 2012, at 10:57 a.m.,
Deanna called 911 to report that her ex-husband
“poked her in the face with his finger and threatened to
burn the house down and refused to leave.” The police
report notes that the suspect is a “Black male.”
ROA.5445-48. Once police arrived, they did not arrest
the ex-husband. Instead police merely took him to a
nearby Shell gas station. Menchaca Depo at 34:14 –
35:12. ROA.5333-34; ROA.5445-48.
Later at 9:17 p.m., also on July 28, 2012, Deanna
called 911 again to report that the ex-husband had
come right back to her home (after police just took him
around the corner) to harass her. (ROA.5449-52). True
to form, police still did not arrest him. Instead, police
gave the domestic violence perpetrator another free car
ride in their police cruiser to another neighborhood

6
nearby. Menchaca Depo at 35:15–37:25. ROA.5334-36;
ROA.5449-52.
On August 16, 2012 (one day before Deanna’s final
911 call) Deanna called Police to report that her exhusband was again stalking her. Police did not arrest
him, despite knowing his identity and whereabouts.
Menchaca Depo at 33:16 – 34:11. ROA.5332;
ROA.5438-41. Thus, prior to her final call, as the
summary judgment record established, police routinely
paid lip service to Deanna by promising that during
their patrols they would keep watch for the
perpetrator, but oftentimes they would barely shoo him
away, or give him a ride home, without taking him into
custody, even when Deanna had a protective order.
B. Deanna’s Final 911 Call.
On Friday, August 17, 2012 at 10:54 a.m., while
being attacked inside her home, Deanna managed to
dial 911. ROA.5434. The call was taken by Tonyita
Hopkins, an employee in the City’s 911 call center.
ROA.5434. At the call’s outset, Deanna is heard
screaming for assistance from 911 at the top of her
lungs in fear. ROA.5303. Five minutes into the call,
Deanna is heard asking her attacker why he is
attacking her and begging “please, please stop it.”
ROA.5300. Seven minutes into the call, Deanna is
heard uttering “please, please, please…..why are you
doing this to me.” ROA.5300. Her attacker asks if she
called the police (ROA.5300) and threatened multiple
times that he was going to “kill” her. ROA.5301. From
the tone of Deanna’s voice and his statements, it was
obvious there was a physical disturbance and that her
life was being threatened. ROA.5301; ROA.4405. The

7
defendants never upgraded Deanna’s domestic violence
call to urgent. ROA.5347; ROA.5385; ROA.5434.
According to City records, nearly 50 minutes after
Deanna’s call was placed, Responding Officers finally
arrived at Deanna’s home (ROA.5434) after first
stopping at a 7-Eleven store for bottled water.
ROA.3546; ROA.3552. App. 4. Upon arriving at
Deanna’s home, the officers briefly looked around and
left without ever entering the home or attempting to
locate Deanna or her attacker. ROA.5337-38.
C. Vickie Cook’s 911 Call.
Two days later, on August 19, 2012, after Deanna
did not show up for church, her minor daughters,
mother, and sister went to Deanna’s residence, during
which time Deanna’s mother called the same 911
department to obtain assistance in locating her
daughter or entering the residence. App. 53-54.
Despite the 911 operator knowing that Deanna had
called screaming two days earlier, the operator refused
to send police or EMT to Deanna’s residence despite
pleas from Deanna’s mother. Accordingly, Deanna’s
family was left with no option other than to kick the
door in themselves. Upon entering the residence, they
found Deanna dead in her bathtub, the victim of a
crime. App. 53-54.
D. The District Court Received Evidence of
Actual Discrimination and Defendants’
Contemporaneous Access to Petitioners’
Status.
During the summary judgment proceedings,
Petitioners presented evidence of actual discrimination

8
taking place in the 911 section in the form of an
admission from April Sims, a 911 operator, that the
911 department had practiced providing less protection
in 911 call taking on the bases of race, gender, and the
caller’s status as a domestic violence victim. ROA.547074. Additionally, although the district court allowed
only limited discovery, Petitioners presented evidence
that, at the time, the City had a custom of providing
less protection in 911 call taking on the bases of race,
gender, and status as a domestic violence victim.
Petitioners also presented evidence that at the time of
their conduct, Defendants had access to information
indicating Petitioners’ race, gender, and the domestic
violence nature of the 911 calls.
E. City Leaders Effectively Acknowledge
that Discrimination Existed Through
Selective Enforcement.
On August 25, 2012, the Police Chief conceded that
the 911 center caused Deanna’s death, “[the 911
operator] obviously failed at that, and it cost the life of
Deanna.” ROA.5479. As an acknowledgment of gender
discrimination against women, Dallas’s Mayor, in a
public announcement, called on the male citizens of
Dallas to stop tolerating abuse against women by other
men. The Mayor stated, “[w]e as men must collectively
have a zero tolerance of that attitude of ambivalent
acceptance of any despicable behavior by our male
neighbors.” ROA.5458. When asked what led to
Deanna’s death, the Mayor responded, “[w]e all failed
her. The system failed her, the neighbors next door
failed her, the media failed her, the mayor failed her.”
ROA.5461. Other statements confirm the City’s

9
classification of domestic violence victims by gender.
While appearing on local news, Dallas’s Mayor
reiterated who failed Deanna, “Well, I think we all did.
First of all, as a society, second as a gender of males have failed her, and then our safety net wasn’t there
for her.”3 ROA.872.
F. The District Court Accepted Defendants’
Self-Interested Contentions That They
Had No Discriminatory Motive, Despite
Material Fact Disputes.
During the summary judgment proceedings, the
Individual Defendants argued that, at the time of their
conduct, they were unaware of Petitioners’ race,
socioeconomic status and/or the call’s domestic violence
nature. But, the only evidence offered to support this
contention was the Individual Defendants’ testimony as
to their knowledge and intent. Petitioners offered
substantial evidence that contradicted these
statements.
As to the initial call taker, Hopkins, the district
court concluded, “[her] omissions may have resulted in
dispatch or the responding officers not appropriately
grasping the urgency of the situation later in the
process. Therefore, a reasonable jury could find that

3

Other statements made in the interview are “[t]hese men are
terrorists….We have a war against terror, we worry about
everybody overseas. Right here in our own backyard, these men
are terrorizing people and we don’t call them terrorists. If we
looked at them that way, I think this whole perspective would
change.” ROA.5463.

10
Hopkins acted unreasonably.”4 App. 61. But, the
district court later accepted Hopkins’ testimony that
she was allegedly unaware of Deanna’s status at the
time. App. 62. Deanna’s call itself provided detail
regarding her status, a material fact the district court
ignored. Indeed, the Individual Defendants, including
Hopkins, were able to ascertain Petitioners’ race,
gender, status as a domestic violence caller, and
socioeconomic background from the 911 call, as other
listeners emphatically concluded and as shown in a
summary judgment affidavit. Further, there were
material fact disputes as to whether the Individual
Defendants looked at information reflecting Petitioners’
race and status. Defendants clearly had access to the
information at their fingertips, and evidence supports
that each viewed this evidence. Finally, whether the
Individual Defendants acted, as others in the 911
department, to discriminate against Petitioners
because of their race, gender, status as a domestic
violence victim, and socioeconomic background is a
dispute that should have been resolved by a jury.
Likewise, based principally on the Responding
Officers’ representations, the district court concluded
that there was no evidence that the Officers acted with
discriminatory intent. App. 68.
But there was
supporting evidence that the Responding Officers were
aware of, and acted on, Deanna’s race, gender and
status as a domestic violence victim yet discriminated
against her by, inter alia, (1) not responding to the call
with the appropriate urgency dues to the nature of the
4

See Nerren v. Livingston Police Dep’t, 86 F.3d 469, 472 (5th
Cir.1996)(under one prong, defendant is entitled to qualified
immunity only if defendant’s conduct was objectively reasonable).

11
call, (2) stopping at 7–Eleven for personal purchases on
the way to the call, (3) refusing to investigate the rear
of Deanna’s residence, (4) refusing to forcibly enter the
residence, (5) providing less protection to female
victims, (6) giving lower priority to 911 domestic
violence calls, and (7) not driving fast with lights and
sirens on, as would be required by Deanna’s status.
In fact, none of the defendants provided evidence as
to “why” they acted as they did, other than because of
Deanna’s status, which is consistent with the actual
discrimination Ms. Sims described as taking place in
the 911 section. At the very least, these facts were
undisputed. But after weighing the Defendants’ facial
denials, and deeming them all credible, the district
court granted defendants’ motions for summary
judgment.
G. The Fifth Circuit Concludes That
Certain Evidence Is “Outlier”; That
Movants’ Testimony Is “Deemed
Credible;” And Declines To Credit Other
Evidence.
Petitioners appealed to the Fifth Circuit, again
explaining that Deanna’s due process rights were
violated as were her equal protection rights as a result
of the Defendants’ intentional discrimination on the
basis of race, gender, and/or status as a female victim
of domestic violence. See Appellants’ Br. (docketed by
5th Cir. July 9, 2019). The Fifth Circuit summarily
affirmed dismissal of Petitioners’ due process claims on
the basis that the Fifth Circuit does not recognize the
state-created danger theory. As to Petitioners’ equal
protection claims, the Fifth Circuit assessed the

12
credibility of the evidence and classified evidence of
discrimination from April Sims as “outlier” evidence.
The Fifth Circuit also held that the movants’ denials
were “deemed credible” and ignored the multiple
admissions of discrimination by the City in its handling
of 911 calls on the basis of race, gender and/or nature
of the calls. The Fifth Circuit also summarily rejected
substantial evidence of discriminatory acts by other
911 employees circa the time of the discrimination
alleged in the underlying suit and disregarded other
material fact disputes.
If the district court had allowed a jury to view this
evidence, reasonable jurors could have found that the
discrimination against Deanna, Vickie, and other
similarly situated individuals was intentional and so
severe and pervasive that it illuminated a pattern and
practice of discrimination.
REASONS FOR GRANTING THE PEITITON
The Fifth Circuit’s new “outlier” test in discarding
summary judgment evidence it believes to be abhorrent
and its newly minted “deemed credible” standard in
viewing a movant’s testimony violate Fed.R.Civ.P. 56’s
summary judgment requirements and are in express
conflict with precedent in this Court and all other
circuits. In applying these new principles for
evaluating summary judgment evidence, the Fifth
Circuit dismissed evidence that clearly establishes
discrimination in the department where most of the
defendants were employed. April Sims’s testimony was
deemed “outlier” not because there was unequivocal
evidence proving it was outlying, but because that was
the only way the Fifth Circuit could evade the

13
realization that discrimination existed in the 911
department and these defendants acted consistent with
those patterns and customs.
The decision below is not only irreconcilable with
the principle that material evidence cannot be
summarily dismissed, it is contrary to Rule 56 and its
progeny, which mandate that “the evidence of the nonmovant is to be believed, and all justifiable inferences
are to be drawn in his favor” and “credibility
determinations, the weighing of the evidence, and the
drawing of legitimate inferences from the facts are jury
functions, not those of a judge.” In other words, the
Fifth Circuit took material evidence that would easily
defeat summary judgment and labeled it as outlying.
The Fifth Circuit also accepted, wholesale, the selfinterested defendants’ disputed testimony.
This
decision cannot be understood as an effort to believe
Petitioners’ evidence or draw inferences in their favor.
Instead, the decision can only be understood as a direct
assault on the principles that this Court has
established.
This Court’s review thus is crucial to rejecting the
Fifth Circuit’s new summary judgment standards and
thwarting the Fifth Circuit’s dramatic expansion of the
ability of courts in the Fifth Circuit to classify material
evidence as “outlier” evidence and weigh evidence
according to the court’s concept of a witness’s
credibility. If allowed to stand, the Fifth Circuit’s
“outlier” test and “deemed credible” standards will
expose summary judgment non-movants to exactly the
sort of insurmountable burden this Court intended to
prevent with its summary judgment trilogy. Indeed,

14
the underlying decision amply demonstrates the
danger. The Fifth Circuit upheld the district court’s
grant of summary judgment even though Petitioners
submitted substantial evidence of fact disputes—the
precise result the summary judgment principles sought
to avoid. The Fifth Circuit made no pretense that it
refused to consider clearly contradicting evidence.
Instead, it flouts this Court’s directions by making an
end run around this Court’s summary judgment
principles.
Finally, the Fifth Circuit’s decision endangers all
summary judgment proceedings.
Any material
evidence that would be fatal to a motion for summary
judgment now becomes fodder for an argument that the
evidence should be dismissed as an outlier, or that
determining the veracity of a self-interested movant’s
testimony is now presumptively true. If allowed to
stand, the Fifth Circuit’s decision will chill summary
judgment proceedings for nonmovants and produce
that precise uncertainty this Court sought to eliminate
with its summary judgment trilogy. Thus, review by
this Court will help restore “predictability and
certainty” to summary judgment proceedings.
Additionally, the ruling on Petitioners’ due process
claims merits the Court’s attention. Fundamental due
process claims should not result in drastically
divergent outcomes depending on the circuit in which
the victim lives, yet that is precisely what happened
here. According to the Fifth Circuit, the violation of
Deanna’s due process rights, which the Fifth Circuit
acknowledges happened, is not actionable since the
Fifth Circuit stated below that it does not recognize the

15
state created danger liability theory. In the Second,
Third, Sixth, Seventh, Eighth, Ninth, Tenth and DC
Circuits, however, these Petitioners could sue for
Deanna’s death had the conduct happened in those
jurisdictions. The Fifth Circuit should not be allowed to
provide a favorable forum for violators of due process
rights.
I.

The Fifth Circuit’s New “Outlier” Approach
Directly Conflicts with Other Circuits And
Eviscerates This Court’s Summary
judgment Principles.

Since this Court’s trio of opinions, appellate courts
have been called upon to engage in line-drawing
exercises to determine whether a nonmoving party has
adduced sufficient evidence to defeat a motion for
summary judgment. This Court has sanctioned the
principles that should be applied. Notably, a court may
grant summary judgment only if, after construing the
record evidence, and the reasonable inferences which
may be drawn therefrom, most favorably for the party
opposing the motion, the proof could not support a
judgment in favor of the nonmoving party. Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
587–88 (1986). “Credibility determinations, the
weighing of the evidence, and the drawing of legitimate
inferences from the facts are jury functions, not those
of a judge.... The evidence of the non-movant is to be
believed, and all justifiable inferences are to be drawn
in his favor.” Anderson v. Liberty Lobby, 477 U.S. 242,
255 (1986). See also Eastman Kodak Co. v. Image
Technical Services, Inc., 504 U.S. 451, 456 (1992).

16
But here, the errors of which Plaintiffs complain are
not simply whether the relevant evidence, viewed in
the light most favorable to the nonmoving party, is
sufficient to support a judgment for that party
(although it was not). Instead, the error here is that
the Fifth Circuit ignored this Court’s summary
judgment principles, opting instead to create new
standards for evaluation, consideration, and now
rejection, of material evidence.
For instance, public statements made by April Sims,
the former 911 call taker, demonstrate that many 911
call takers deduce a person’s race by listening to the
calls, and center employees are known to discriminate
against callers according to race, location and the
domestic violence nature of the calls:
“I’m a very easygoing person and I will give the
shirt off my back to help others, but when call
after call are black people fighting and
screaming and hitting each other and they
want to yell at me and treat me like [expletive]
when I’m trying to help, is not cool,” the poster
writes.
“Black people are outrageous!” it says. “They
are more like animals; they never know how to
act … Always causing problems.”
On the page, the person identified as Sims
repeatedly writes about her job as a 911 operator
and states that about 5 percent of the calls she
answers are “real emergencies” while the rest
are calls to “baby sit” grown men and women.

17
“You want to call 911 cause your boyfriend
put his hand on you and you want to press
charges when you don’t even know his real
name?’” Sims wrote. “Sure, let’s a make a
police report for Dino, that is his street
name.”
ROA.5470-74. These statements from Sims, who
worked in the same room as the Individual Defendants
speak volumes of system-wide discrimination in the
call center, and especially when those statements are
taken together with those of the Police Chief and
Mayor, who acknowledge the discrimination and its
impact. Ms. Sims had first-hand knowledge of what
was taking place in the 911 center circa the August 17,
2012, call. Another City policymaker virtually concedes
that there has been a discrimination problem in the
call center:
Dallas City Council member Dwaine Caraway
told WFAA-TV that the commentary
“embarrasses not just the department, it
embarrasses the city.”
“Number one, I am shocked and it saddens me to
know that this is going on and still taking
place in today’s time, especially here in
911,” Caraway said.
ROA.5471. At the very least, these facts demonstrated
a material fact dispute as to discrimination in the 911
center and in Defendants’ responses to domestic
violence complaints, and exposes fact disputes: (i) of
racism against African-American women that exists in
the City’s call center; (ii) that call-takers do listen to

18
the callers’ voices and complaints to determine whether
they are minority callers, and then treat them
differently if they are believed to be African-American;
and (iii) the deficiency in the City’s training procedures
that leads to constitutional violations.
However, the Fifth Circuit was dismissive of this
evidence, concluding “Sims was an outlier, who was
deservedly fired from her position.” App. 20. First,
Sims wasn’t fired for these admitted acts of
discrimination and selective provision of services. No,
she was fired for posting comments on Facebook.
Second, there was nothing in the record that proved
that Sims was an outlier or that her acts were
inconsistent with those of her coworkers and superiors.
Nevertheless, regardless of how repugnant Sims’
testimony may have sounded to the Fifth Circuit, it
cannot be disregarded in the determination of the
existence of material fact disputes.
Petitioners presented other evidence regarding
various instances where citizens called to report actual
or perceived discrimination by race and gender in the
City’s responses to 911 calls. Cole Depo at 30:15-21.
ROA.5409. Supervisors admit hearing of the
discrimination in the City’s provision of police services.
Wakefield Depo at 30:23 – 31:10. ROA.5348-49. Other
City records demonstrated that situations like these
911 calls are not uncommon for minority and
socioeconomically deprived callers. ROA.5543-5609.
Another telling admission of the City’s apathy to
domestic violence is the City’s concession in its
interrogatory response, “the City Council has requested
the Dallas Police Department to be more proactive in

19
addressing domestic violence.” ROA.5509 (emphasis
supplied). In addition, the City produced many citizen
complaints when asked, ‘”[p]lease state whether prior
to October 3, 2014, any person contended that the City
or Police Department acted according to race, gender,
zip code, class, socio-economic levels, location or other
demographics in the way it addressed, handled,
responded to or investigated calls for ‘want to locate’ or
‘welfare’ checks.”’ Response to Interrogatory No. 5.
ROA.5510. Likewise, the City produced several
complaints when asked “[f]or each instance where
someone has contended that the City…discriminated
(or acted differently) according to race, gender, zip
code, class, socio-economic levels, location or other
demographics in the way it addressed, handled,
responded to or investigated domestic violence claims,
identify the date of and party making the contention.”
Response to Interrogatory No. 4. ROA.5502.
Here, the Fifth Circuit reached its problematic
result only by expressly deviating from the approach of
other circuit courts of appeal in favor of a new Fifth
Circuit “outlier” approach to evidence. By developing
the critical “outlier” standard, on its own initiative, the
Fifth Circuit robbed Plaintiffs of the opportunity to
rebut the Defendants’ self-interested statements that
they did not intend to discriminate in their handling of
Petitioners’ 911 domestic violence calls. Plaintiffs
would and should have been able to rely on this
powerful evidence to establish a material fact dispute
regarding what was happening in the 911 center, as it
relates to 911 calls from minority domestic violence
female victims.

20
In creating this new approach, the Fifth Circuit
indisputably created a direct circuit conflict regarding
the court’s role in viewing summary judgment evidence
and dramatically widened a court’s ability to weigh
evidence, wholly dismiss detestable evidence, ignore
other material evidence, and make credibility
determinations.
II.

In Ignoring Competing Evidence, The Fifth
Circuit Has Created a Presumption of
Credibility In A Defendant’s Denials.

Prior to the Fifth Circuit’s opinion, credibility
determinations had been determined to be within the
province of the fact-finder. Accordingly, courts in the
various circuits have emphasized repeatedly that cases
that turn on the moving party’s state of mind are not
well-suited for summary judgment. Manganiello v. City
of New York, 612 F.3d 149, 161 (2d Cir.2010)
(“Credibility determinations, the weighing of the
evidence, and the drawing of legitimate inferences from
the facts are jury functions, not those of a judge.”); Ross
v. John’s Bargain Stores Corp., 464 F.2d 111, 115 (5th
Cir.1972); Riley–Stabler Constr. Co. v. Westinghouse
Elec. Corp., 401 F.2d 526, 527 (5th Cir.1968); accord
Miller v. FDIC, 906 F.2d 972, 974 (4th Cir.1990)
(“general rule that summary judgment is seldom
appropriate in cases wherein particular states of mind
are decisive elements of a claim or defense”); Wilson v.
Seiter, 893 F.2d 861, 866 (6th Cir.1990) (“We are aware
that state of mind is typically not a proper issue for
resolution on summary judgment.”), vacated on other
grounds, 501 U.S. 294 (1991); National Union Fire Ins.
Co. v. Turtur, 892 F.2d 199 (2d Cir.1989) (“Questions of

21
intent, we note, are usually inappropriate for
disposition on summary judgment”). This is so because
it is particularly difficult for the nonmoving party to
challenge the “self-serving testimony” of the moving
party without the benefit of trial accessories, namely
cross-examination. Young v. Quinlan, 960 F.2d 351,
360 n.21 (3d Cir. 1992)(a party’s state of mind is
“typically not a proper issue for resolution on summary
judgment”); see also, 60 Ivy Street Corp. v. Alexander,
822 F.2d 1432 (6th Cir.1987) (observing that “the
likelihood of self-serving testimony and the necessity
for the fact-finder’s credibility determinations” make
summary judgment inappropriate when state of mind
is at issue); United States v. 3234 Washington Ave. N.,
480 F.3d 841, 845–46 (8th Cir.2007) (denying summary
judgment where non-moving party’s “evidence put the
overall credibility of the [movant’s] witnesses squarely
at issue.”); Securities & Exch. Comm’n v. Koracorp
Indus., Inc., 575 F.2d 692, 698 (9th Cir. 1978)(the
courts have long recognized that summary judgment is
singularly inappropriate where credibility is at issue.
Only after an evidentiary hearing or a full trial can
these credibility issues be appropriately resolved);
Strickland v. Norfolk Southern Railway Co., 692 F.3d
1151, 1154 (11th Cir. 2012)(where a fact-finder is
required to weigh a deponent’s credibility, summary
judgment is simply improper); United States v. $17,900
in United States Currency, 859 F.3d 1085, 1091 (D.C.
Cir. 2017) (on a motion for summary judgment, “the
court may not make credibility determinations or
otherwise weigh the evidence”).
And when the circumstances are conducive to lying,
well-supported suspicion of dishonesty may serve as a

22
legitimate basis for the factfinder’s reasonable
inferences concerning the ultimate facts at issue. See
Deville v. Marcantel, 567 F.3d 156, 167 (5th Cir.2009).
As discussed above, when others listened to the tapes
of the 911 calls, they formed a strong belief that
Deanna and Vickie were minorities calling about
domestic violence. ROA.5494. Thus, it was erroneous
for the district court to have disregarded disputed facts
on Defendants’ discriminatory intent and knowledge of
Petitioners’ status in granting summary judgment.
“[D]irect evidence of improper motive is usually
difficult, if not impossible, to obtain. Requiring direct
evidence would effectively insulate from suit public
officials who deny an improper motive in cases such as
this.” Tompkins v. Vickers, 26 F.3d 603, 609 (5th
Cir.1994) (circumstantial evidence of an illegitimate
intent overcomes a public official’s claim of qualified
immunity).
Moreover, as discussed in Int’l Shortstop, Inc. v.
Rally’s, Inc., 939 F.2d 1257 (5th Cir.1991) regarding
the mandate that credibility determinations be solely
the province of the jury,
Only through live cross-examination can the
fact-finder observe the demeanor of a witness
and assess his credibility. A cold transcript of
a deposition is generally no substitute
because it cannot unmask the veracity of a
testifying witness clad in a costume of
deception; it cannot unveil that a seemingly
well-groomed witness is coming apart at the
seams: “that he fidgets when answering critical
questions, his eyes shift from the floor to the

23
ceiling, and he manifests all other indicia
traditionally attributed to perjurers.”
Id. at 1265 (quoting Anderson, 477 U.S. at 279
(Rehnquist, J., joined by Burger, C.J., dissenting).
Here, however, both the district court and the Fifth
Circuit presumed as true and credible the Individual
Defendants testimony regarding whether they knew
Petitioners’ race, sex and status and intended to
discriminate on those bases. Thus, as this case
illustrates, the Fifth Circuit has inflexibly applied a
new standard –a presumption of credibility or deemedcredible – to a defendant’s denials, even where (as
here) the record overwhelmingly confirms the
incredulousness of defendants’ self-interested denials.
The panel’s affirmation of a new unwarranted
“deemed-credible” rule establishes a circuit
where—unlike other circuits—courts can ignore
conflicting evidence through the truth-distorting lens
of a defendant’s self-interested denials without
requiring a jury’s fact-finding. Indeed, this new rule is
even in conflict with prior Fifth Circuit holdings. See,
e.g. Thomas v. Great Atl. & Pac. Tea Co., 233 F.3d 326,
331 (5th Cir. 2000) (reversing summary judgment
where circumstantial evidence offered by non-moving
party raised genuine issue of fact as to the credibility
of moving party’s witnesses who had motive to lie,
because “when questions about the credibility of key
witnesses loom as large as they do here, summary
judgment is inappropriate”).
Indeed, the problems with the Fifth Circuit opinion
run even deeper, thereby greatly augmenting the
potential damage that flows from its flawed decision.

24
The panel commits a further serious error in
concluding that “Plaintiffs fail to identify evidence in
the record disputing the fact that Individual
Defendants were not aware of Deanna’s or Vickie’s race
or socioeconomic background.” App. 21. In doing so,
the panel not only discounted, but ignored, conflicting
evidence establishing material fact disputes. For
instance, according to an affidavit, the August 17, 2012,
911 audio tape was played in a room of people of all
ages and ethnicities and they were able to form a
strong belief that Deanna was a minority female calling
about a domestic violence attack. The listeners also
understood that Deanna was frightened, begging for
help, and knew her domestic attacker. ROA.5494.
Anyone listening to the tape (ROA.4405) can determine
whether a reasonable inference can be drawn that
Deanna was a minority domestic violence victim. The
call also evinces that Deanna knew her attacker and
this was a domestic violence call. ROA.5299-5301;
ROA.4405. Thus, this undisputed evidence confirms
what everyone who listened to the recording was able
to determine - Deanna was a domestic violence victim
whose attack was in progress. Petitioners invited the
Fifth Circuit to listen to Deanna’s 911 telephone call
(ROA.4405) where it could have affirmed that it creates
issues of material fact with what the Individual
Defendants contend they could not ascertain from
listening to the call. Vickie’s August 19, 2012, 911 tape
was also a part of the record (ROA.5685) and could
have confirmed the same thing.
Further, although Hopkins claims she did not know
that Deanna lived in a minority neighborhood, evidence
confirms this is a minority neighborhood (ROA.5432)

25
and there was evidence that Deanna’s neighborhood
was well-known to have mostly minority residents.
ROA.5495. Despite this contradictory testimony, the
panel erroneously concluded that there was no
conflicting evidence.
App. 21. Thus, review is
necessary to reaffirm the principles announced in the
Court’s trilogy and disavow the Fifth Circuit’s new
“deemed credible” rule.
III.

The District Court and the Fifth Circuit
Acknowledge, But Ignore, The Evidence of
City-Wide Discrimination.

Petitioners presented substantial evidence that the
City’s 911 domestic violence practices at the time were
discriminatory. Indeed, the district court acknowledged
that the evidence establishes that the City had a
custom of selectively denying assistance to domestic
violence victims such as Ms. Cook,
Here, Plaintiffs produce evidence sufficient to
show that the City, at the time of the incident at
hand, had a custom of providing less protection
in 911 call taking on the bases of race,
socioeconomic background, or status as a
domestic violence victim. Plaintiffs provide this
evidence in the form of citizen complaints,
statements from the Mayor of Dallas,
statements from other former 911 call operators,
confirmed incidents of lost files and misplaced
paperwork involving family violence, subsequent
changes to City policies, and a review of the
City’s response times to 911 priority calls.

26
App.46. When applying the analysis in Shipp v.
McMahon, 234 F.3d 907 (5th Cir. 2000), the Fifth
Circuit concluded that Plaintiffs have “produce[d]
evidence sufficient to [raise a material-fact dispute]
that the City, at the time of the incident at hand, had
a custom of providing less protection in 911 call taking
on the bases of …[gender] and status as a domestic
violence victim.” App.17. In doing so, the Fifth Circuit
noted,
Considering the record in the light most
favorable to Plaintiffs, we recognize that the
City made changes to its policies regarding
response procedures for domestic violence
complaints in the years following Deanna’s
death; the fact that public officials acknowledged
that the City’s policies were not working to
protect victims of domestic violence; the evidence
of misplaced paperwork and domestic violence
cases that went unattended to by law
enforcement; and the disciplinary actions
against the call-center employees.
App. 17-18.
In other words, the evidence that the City, and its
911 unit, had a longstanding custom of selectively
denying protective services to domestic violence victims
such as Ms. Cook, certainly entitled Petitioners to a
jury trial, where a jury could consider whether
Defendants’ conduct was consistent with the City’s
discriminatory practices.
But, despite this
overwhelming and undisputed evidence, the Fifth
Circuit never viewed this evidence in the light most
favorable to Plaintiffs, concluding “Plaintiffs have not

27
shown that these customs or policies were motivated by
a desire to discriminate against women.” App.18. To
reach this result, the Fifth Circuit had to make an
“assumption” regarding the City’s motivation, opining,
“[i]f anything, the actions and statements of the City’s
officials regarding domestic violence following Deanna’s
death demonstrate the opposite of intentional
discrimination.” App. 18.
Such assumption violates this Court’s summary
judgment principles and should lead to review and
remand of this action.
IV.

The Fifth Circuit’s Blatant Refusal to
Recognize The State-Created Danger
Theory Under Section 1983 Conflicts With
other Circuits, most of which Recognize
These Due Process Violations.

The Fifth Circuit remarked “‘[i]t’s true that Deanna
might have a viable claim for violation of her due
process rights if this circuit recognized the ‘statecreated danger theory,’ which can make the state liable
under § 1983 if ‘it created or exacerbated the danger’ of
private violence against an individual.’” App 13. The
district court also acknowledged, “some jurisdictions
have endorsed the “state-created danger theory.”
App.77. Yet the Fifth Circuit wrote, “‘this circuit does
not recognize the state-created danger theory, and we
decline to do so today, despite Plaintiffs’ urging that
‘[t]his is that case.’” App.13.
In choosing not to recognize Deanna’s due process
rights under this theory, the Fifth Circuit created a
direct conflict among the courts of appeals and deprives

28
federal litigants of constitutional rights that she would
have in other circuit courts of appeal. Notably, this is
an about-face from the Fifth Circuit’s previous practice
of avoiding plainly rejecting the “state-created danger”
theory. See Doe ex rel. Magee v. Covington Cty. Sch.
Dist. ex rel. Keys, 675 F.3d 849, 865 (5th Cir. 2012); see
also Morin v. Moore, 309 F.3d 316, 321 (5th Cir. 2002)
(“[W]e neither adopted nor rejected the state created
danger theory.”); McKinney v. Irving Indep. Sch. Dist.,
309 F.3d 308, 313 (5th Cir. 2002) (same).
Instead, the Fifth Circuit previously stated that it
had not yet accepted the theory, while simultaneously
analyzing the facts before it and holding that they did
not meet the requirements even under the “statecreated danger” theory. Accord Doe, 675 F.3d at 865
(“Although we have not recognized the theory, we have
stated the elements that such a cause of action would
require.”). Even when sitting en banc, the Fifth Circuit
had actively avoided expressly rejecting or accepting
the theory. See id. (“We decline to use this en banc
opportunity to adopt the state-created danger theory in
this case because the allegations would not support
such a theory.”).
Nevertheless, following this Court’s ruling in
DeShaney, eight other courts of appeal have agreed
that a state actor may be liable for action that creates
or increases danger to an individual under DeShaney.
See, e.g., Butera v. District of Columbia, 235 F.3d 637,
651 (D.C. Cir. 2001) (“We join the other circuits in
holding that, under the State endangerment concept,
an individual can assert a substantive due process
right to protection by the District of Columbia from

29
third-party violence when . . . officials affirmatively act
to increase or create the danger that ultimately results
in the individual’s harm.”); Kallstrom v. City of
Columbus, 136 F.3d 1055, 1066–67 (6th Cir. 1998) (“We
therefore hold that the City’s policy of freely releasing
this information from the undercover officers’
personnel files under these circumstances creates a
constitutionally cognizable ‘special danger,’ giving rise
to liability under § 1983.”); Kneipp v. Tedder, 95 F.3d
1199, 1211 (3d Cir. 1996) (“[W]e hold that the statecreated danger theory is a viable mechanism for
establishing a constitutional claim under 42 U.S.C.
§ 1983.”); Uhlrig v. Harder, 64 F.3d 567, 572 (10th Cir.
1995) (“While state actors are generally only liable
under the Due Process Clause for their own acts and
not for private violence . . . there are two recognized
two exceptions to this rule: (1) the special relationship
doctrine; and (2) the ‘danger creation’ theory.”); Reed v.
Gardner, 986 F.2d 1122, 1127 (7th Cir. 1993) (holding
that “officers may be subject to suit under section
1983 if they knowingly and affirmatively create a
dangerous situation for the public and fail to take
reasonable preventative steps to diffuse that danger”);
Dwares v. City of New York, 985 F.2d 94, 98–99 (2d Cir.
1993) (“We read the DeShaney Court’s analysis to
imply that . . . an allegation that the officers in some
way had assisted in creating or increasing the danger
to the victim would indeed implicate those rights.”),
overruled on other grounds by Leatherman v. Tarrant
County Narcotics Intelligence & Coordination Unit, 507
U.S. 163, 164 (1993); Freeman v. Ferguson, 911 F.2d
52, 54–55 (8th Cir. 1990) (recognizing state-created
danger claim where officers ignored victim’s pleas for
help allegedly at the direction of the police chief);

30
Wood v. Ostrander, 879 F.2d 583, 589–90 (9th Cir.
1989) (recognizing state-created danger claim where
officer’s conduct “placed the plaintiff in a position of
danger”).
Notably, the Ninth Circuit Court of Appeals made
clear that “the ‘state-created danger’ doctrine predates
DeShaney,” which is “more reasonably understood as
an acknowledgment and preservation of the doctrine,
rather than its source.” See Kennedy v. City of
Ridgefield, 439 F.3d 1055, 1061 n.1 (9th Cir. 2006). The
Eleventh Circuit, after acknowledging the theory in
1989, too has retracted to a position that causes
confusion. Compare Cornelius v. Town of Highland
Lake, 880 F.2d 348, 354–55 (11th Cir. 1989) with White
v. Lemacks, 183 F.3d 1253, 1259 (11th Cir. 1999) (the
only circuit to hold the “state-created danger” theory
was no longer good law after acknowledging it because
of this Court’s ruling in Collins v. City of Harker
Heights, 503 U.S. 115, 127 (1992)). And following the
Fifth Circuit’s previous practice, the First and Fourth
Circuits have also discussed but avoided accepting or
rejecting the theory. See Rivera v. Rhode Island, 402
F.3d 27, 35 (1st Cir. 2005) (“This court has, to date,
discussed the state created danger theory, but never
found it actionable on the facts alleged.”); Pinder v.
Johnson, 54 F.3d 1169, 1175–76 (4th Cir. 1995) (en
banc).
But here, the Fifth Circuit has finally made a
decision on this theory and created a circuit split by
refusing to recognize this theory in any form. App. 13.
Ignoring the circuit’s previous jurisprudence, the panel,
referencing Beltran v. City of El Paso, 367 F.3d 299,

31
307 (5th Cir. 2004), stated that the Fifth Circuit has
“consistently refused to recognize a ‘state-created
danger’ theory of § 1983 liability even where the
question of the theory’s viability has been squarely
presented.” App. 13. Instead of analyzing whether
Deanna pled sufficient facts for a claim, the panel
dismissively held that Deanna “might have a viable”
claim were it not for its decision to decline to recognize
the state-created danger theory.
The panel stated that “Deanna might have a viable
claim for violation of her due process rights if [the
Fifth] circuit recognized ‘the state-created danger
theory.’” App 13. Eight other circuits have expressly
accepted the “state-created danger” theory,
interpreting DeShaney as allowing for claims absent
limitations on freedom provided, inter alia, the state
actor created or increased the danger to an individual.
See, e.g., Butera, 235 F.3d at 651; Kallstrom, 136 F.3d
at 1066–67; Kneipp, 95 F.3d at 1211; Uhlrig, 64 F.3d at
572; Reed, 986 F.2d at 1127; Dwares, 985 F.2d at
98–99; Freeman, 911 F.2d at 54–55; Wood, 879 F.2d at
589–90. Although the Fourth Circuit recognizes the
state created danger theory, its danger creation test
would require a restraint on liberty that squarely
conflicts with other federal court of appeals decisions.
Pinder 54 F.3d at 1175(“Pinder was never incarcerated,
arrested, or otherwise restricted in any way”).
Nevertheless, the Fifth Circuit panel did not even
have to look to the plethora of examples these courts of
appeal gave to decipher a standard for this theory of
due process violations. The Fifth Circuit had previously
plainly “stated the elements that [a “state-created

32
danger” theory] cause of action would require.” See Doe,
675 F.3d at 865. According to the Fifth Circuit, sitting
en banc, the panel in Scanlan v. Texas A&M
University, 343 F.3d 533, 537–38 (5th Cir. 2003),
“explained that the state-created danger theory
requires ‘a plaintiff [to] show [1] the defendants used
their authority to create a dangerous environment for
the plaintiff and [2] that the defendants acted with
deliberate indifference to the plight of the plaintiff.’”
Doe, 675 F.3d at 865.
Here, the district court had evidence that
Defendants continued the practice of ignoring the
severity of domestic violence by snubbing Deanna’s
repeated pleas to arrest her abuser prior to the day of
her death. As shown in the police reports in the
summary judgment record, during the rare occasions
when police came to Deanna’s home, they did not arrest
her abuser. Sometimes police simply gave him a ride
around the corner or shooed him away. These actions
conveyed the unmistakable message to her ex-husband
that police would not take actions against him, which
gave him license to reoffend and limited Deanna’s
freedom – becoming a prisoner in her own home. By
emboldening the ex-husband with their cavalier
attitude towards his violence, the City placed Deanna
at a greater risk of domestic violence than she would
have faced had they done nothing. Moreover, the
egregious delay in dispatching police on August 17,
2012, while leaving the attacker alone in Deanna’s
house as the 911 operator hung up in Deanna’s face,
further restrained Deanna’s ability to escape the
attacker’s grasp and her right to life and liberty.

33
Legal scholars analyzing the doctrine widely reach
the conclusion that the Court must step in to resolve
this circuit conflict. Chemerinsky has commented that,
“[o]ne would think, given the large volume of litigation
in this area and the splits among the circuits that the
Supreme Court would have stepped in.” Erwin
Chemerinsky, The State-Created Danger Doctrine, 23
TOURO L. REV 1, 26 (2007). Others have observed
that the circuit splits are particularly troublesome for
public school officials. Jeff Sanford, The Constitutional
Hall Pass: Rethinking the Gap in §1983 Liability That
Schools Have Enjoyed Since DeShaney, 91 Wash. U. L.
Rev. 1633, 1640 (2014) (“But besides these broad
themes, and despite over two decades of case law, there
still exists nontrivial inconsistencies in the ways circuit
courts analyze state created dangers.”); see also Laura
Oren, Some Thoughts on the State-Created Danger
Doctrine: DeShaney is Still Wrong and Castle Rock is
More of the Same, 16 Temple Pol. & Civ. Rts. L. Rev.
47, 63 (2006) (“As the inconsistencies and
irrationalities in the special danger cases become more
and more troublesome, they create dialectical
contradictions . . .”).
But here the Fifth Circuit has blatantly disregarded
DeShaney’ s recognition of this due process violation
and other circuit courts of appeal that apply this
doctrine. By reviewing this case, this Court can provide
predictability and uniformity among the courts in
recognizing and applying the state-created danger
theory of due process violations.

34
V.

The Fifth Circuit’s Opinion So Departs
from the Accepted and Usual Course of
Judicial Proceedings to Warrant this
Court’s Exercise of its Supervisory Powers.

Further, this case presents the Court with an
appropriate opportunity to determine that, pursuant to
U.S. Supreme Court Rule 10(a), the Fifth Circuit “so
far departed from the accepted and usual course of
judicial proceedings as to call for an exercise of the
Court’s supervisory powers.” See e.g., Nguyen v. United
States, 539 U.S. 69, 73-74 (2003). Indeed, it is difficult
to fathom a case where a circuit court abdicated its
sanctified and sacred role as “neutral arbiter” more
blatantly and egregiously - and contrary to well-settled
summary judgment principles - than the Fifth Circuit
did in this case.
As discussed herein, the manifest injustice of the
Fifth Circuit’s opinion is obvious and transparent.
Indeed, the Fifth Circuit eviscerated, rather than
merely violated, summary judgment principles this
Court meticulously established. The Fifth Circuit, to
achieve that goal, had to advance a new approach to
classifying the strength of evidence, place undue
weight on testimony from interested witnesses, and
ignore material conflicting evidence. The Fifth Circuit,
in affirming the district court’s rulings acted more like
Defendants’ advocates than an impartial arbiter
determining a summary judgment motion. By
dismissing material evidence as outlier, and presuming
the credibility of Defendants’ testimony, the Fifth
Circuit engaged in judicial overreach and acted in
direct opposition to the extremely important principles

35
this Court established in evaluating summary
judgment motions. This Court can and should recognize
this misuse of judicial authority and remedy the wrong
committed in this case. See Hollingsworth v. Perry, 558
U.S. 183, 196 (2010) (“This Court … has a significant
interest in supervising the administration of the
judicial system” particularly in matters “relate[d] to the
integrity of judicial processes.”).
VI.

The Fifth Circuit’s Decision is Simply
Erroneous.

Finally, the Fifth Circuit erred in affirming
summary judgment. In resolving qualified immunity
claims, although the burden of proof may shift to a
plaintiff once an official pleads qualified immunity, at
the summary judgment stage, the courts must view
facts in the light most favorable to the nonmoving
party. Wilkie v. Robbins, 551 U.S. 537, 543 n. 2 (2007)).
“The evidence of the non-movant is to be believed, and
all justifiable inferences are to be drawn in his favor.”
Liberty Lobby 477 U.S. at 255. Here, neither the
district court nor the Fifth Circuit applied these
principles.
The district court’s determination that defendants
were entitled to qualified immunity rested entirely on
its characterization of each of the Individual
Defendants’ testimony that each did not have
“discriminatory intent.” App. 64-68.
This
characterization was based on the district court’s
inaccurate conclusion that defendants allegedly “did
not even know about the socioeconomic status of
Deanna’s residence, Deanna’s race, or Deanna’s status
as a domestic violence victim.” App. 62. However, these

36
conclusions were plainly disputed by Plaintiffs’
submission discussed supra. Further, the only way the
district court could conclude that Defendants had no
“discriminatory intent” was to weigh the defendants’
credibility regarding their statements as to their
alleged lack of discriminatory intent and ignore
disputed facts that Defendants were aware of Deanna’s
status and the City’s discriminatory customs at the
time of the alleged discrimination.
As the record established, the parties dispute key
facts relating to whether the Individual Defendants
were aware of Petitioners’ race, gender, status as a
domestic violence victim, and socioeconomic
background. These include evidence whether the
Individual Defendants were unable to ascertain
Petitioner’s race, gender, status as a domestic violence
victim, and socioeconomic background from the 911 call
as Hopkins testified, but that other listeners
emphatically disputed; whether the Individual
Defendants had access to information reflecting
Petitioners’ race and status, when the record
demonstrated they did; and whether the Individual
Defendants acted, as others in the 911 department, to
discriminate against Petitioners because of their race,
gender, status as a domestic violence victim, and
socioeconomic background.
If the evidence had been construed in Petitioners’
favor, as it should have been, a jury could listen to the
911 tape and easily find that it was obvious that
Deanna was a minority victim of a domestic crime and
that Vickie was calling regarding the same. It could
find that the Individual Defendants had information in

37
front of them establishing Petitioners’ race, gender,
status as a domestic violence victim, and socioeconomic
background. It could find that the Defendants’ acts
and omissions were “because of” Petitioners’ race,
gender, status as a domestic violence victim, and
socioeconomic background, as had been demonstrated
by the City’s customs. Above all, a jury could decide
that the Individual Defendants acted as they did, as
April Sims stated regarding the 911 department,
because of Petitioners’ race, gender, status as a
domestic violence victim, and socioeconomic
background.
The Fifth Circuit’s failure even to consider the
competing evidence and material fact disputes is itself
grounds for reversal.
CONCLUSION
By granting this writ, this Court can instruct the
lower courts to recognize the state-created danger
theory of due process violations, as other circuit courts
of appeal have done. In addition, given the Fifth
Circuit’s establishment of new and prejudicial
summary judgment principles, clear violation of this
Court’s summary judgment principles and this Court’s
unquestioned authority to maintain the integrity of
judicial proceedings in the lower federal courts, this
Court should grant the petition for a writ of certiorari
to the United States Court of Appeals for the Fifth
Circuit to correct the material errors made.

38
Respectfully submitted,
Aubrey “Nick” Pittman
Counsel of Record
The Pittman Law Firm, P.C.
100 Crescent Court, Suite 700
Dallas, Texas 75201-2112
214-459-3454
pittman@thepittmanlawfirm.com
Counsel for Petitioners

